APPENDIX

TABLE OF APPENDICES
Appendix A
Opinion, United States Court of Appeals
for the Tenth Circuit, Bond v. City of
Tahlequah, No. 19-7056 (Dec. 1, 2020) ....... App-1
Appendix B
Order, United States Court of Appeals for
the Tenth Circuit, Bond v. City of
Tahlequah, No. 19-7056 (Dec. 28, 2020) ... App-34
Appendix C
Order, United States District Court for
the Eastern District of Oklahoma, Burke
v. City of Tahlequah, No. CIV-18-257RAW (Sept. 25, 2019) ................................ App-36
Appendix D
Relevant Constitutional and Statutory
Provisions................................................... App-49
U.S. Const. amend. IV ........................ App-49
42 U.S.C. § 1983 ................................. App-49

App-1
Appendix A
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
________________
No. 19-7056
________________
AUSTIN P. BOND, as Special Administrator of the
ESTATE OF DOMINIC F. ROLLICE, Deceased,
v.

Plaintiff-Appellant,

CITY OF TAHLEQUAH, OKLAHOMA; BRANDON VICK;
JOSH GIRDNER,
Defendants-Appellees.
________________
Filed: Dec. 1, 2020
________________
Before: MATHESON, BACHARACH, and McHUGH,
Circuit Judges.
________________
OPINION
________________
McHUGH, Circuit Judge.
On August 12, 2016, Officers Brandon Vick and
Josh Girdner shot and killed Dominic Rollice. The
administrator of Dominic’s 1 estate brought a § 1983
claim against Officers Vick and Girdner alleging they
1 For clarity, we refer to Dominic Rollice and his ex-wife, Joy
Rollice, by their first names.

App-2
used excessive force against Dominic in violation of his
Fourth Amendment rights. 2 The district court granted
summary judgment to Officers Vick and Girdner on
the basis of qualified immunity. Exercising
jurisdiction pursuant to 28 U.S.C. § 1291, we reverse
because a reasonable jury could find facts under which
Officers Vick and Girdner would not be entitled to
qualified immunity.
I.

BACKGROUND

A. Factual History 3
On August 12, 2016, Dominic’s ex-wife, Joy, called
911. She requested police assistance: “Hey, can I get
somebody to come over to my house, my ex-husband is
in the garage, he will not leave, he’s drunk and it’s
going to get ugly real quick.” Ex. 1 at 00:01-00:13. 4 The
dispatcher responded, “If we send somebody out there,
he will go to jail for being intoxicated in public, if that’s
what you want to happen.” Ex. 1 at 00:22-00:28. Joy
replied, “Yes, that is.” Ex. 1 at 00:29-00:30. The
Robbie Burke, the administrator of Dominic’s estate when the
suit commenced, passed away during the pendency of this case.
On September 25, 2020, we granted Austin Bond’s motion to be
substituted for Ms. Burke.
2

This factual recitation focuses on the information the officers
had at the time of the encounter. Information not available to the
officers, such as what happened earlier that day or who legally
owned the residence, is immaterial because the reasonableness
of the officers’ actions is “judged from the perspective of a
reasonable officer on the scene, rather than with the 20/20 vision
of hindsight.” Graham v. Connor, 490 U.S. 386, 396 (1989).
3

4 We refer to the conventionally filed exhibits in this case by
the exhibit numbers used in the summary judgment filings before
the district court. App., Vol. II at 309, 376. Exhibit 1 is a recording
of Joy’s 911 call, and Exhibit 7 is Officer Reed’s bodycam footage.

App-3
dispatcher then asked whether Dominic lived at the
residence, to which Joy responded, “No, he doesn’t live
here. He’s a registered sex offender and lives in Park
Hill. He’s my ex-husband. He’s still got tools in the
garage. He doesn’t live here.” Ex. 1 at 00:30-00:45.
Officer Josh Girdner responded to Joy’s 911 call,
and Officer Chase Reed responded as Officer Girdner’s
backing officer. Officer Brandon Vick, the patrol shift
supervisor, also responded to the call. It is disputed
exactly how much information the officers received
from the dispatcher, but it is undisputed they knew
Dominic was Joy’s ex-husband, he was intoxicated,
and Joy wanted him gone. See, e.g., App., Vol. II at 320
(Officer Girdner knew “that [Joy’s] ex-husband was at
her house and he was intoxicated and she
feared . . . [what might] happen”).
Officer Girdner and Officer Reed arrived at about
the same time and met Joy in the front yard. Officer
Girdner spoke with Joy, who told him why she called
911. 5 Joy then showed Officers Girdner and Reed to
the side entrance of the garage, where they met
Dominic. Officer Vick arrived while Officers Girdner
and Reed were talking to Dominic at the side door to
the garage.
Officer Girdner believes he explained to Dominic
why they were there. Dominic expressed concern that
the officers intended to take him to jail, and Officer
5 There is no dispute this conversation occurred. Aplt. Br. at 4
(citing App., Vol. II at 344-45). But it is disputed how much Joy
told Officer Girdner, specifically whether Joy explained Dominic
did not live there. See Aplt. Br. at 4 (“Officers Reed, Girdner, and
Vick did not know that [Dominic] no longer lived at the
residence.”).

App-4
Girdner told him they were not going to do that.
Instead, they were “going to try to get him a ride out
of there.” App., Vol. II at 325; see also App., Vol. II at
203, 351. Dominic informed the officers that he had a
ride coming. During the conversation, Officer Girdner
perceived Dominic as “fidgety.” App., Vol. I at 198; see
also App., Vol. II at 325 (“He kept fidgeting with his
hands.”); Ex. 7 at 00:00-00:13. Based on that
perception, Officer Girdner asked to pat down
Dominic. 6 Dominic refused.
Officer Reed’s body camera began capturing video
at some point during this exchange. 7 It is difficult to
tell if the video starts before, during, or after Officer
Girdner’s request to pat down Dominic because there
is no audio for the first thirty seconds of video.
The video appears to show Dominic talking to
Officer Girdner and gesturing with his hands.
Dominic also appears to be fidgeting with something
in his hands. 8 Officer Girdner then begins gesturing
with his hands and takes a step toward the doorway,
causing Dominic to take a step back. 9 Officer Girdner
There is some dispute as to whether Dominic was wearing
clothing in which he could easily conceal a weapon. See Aplt. Br.
at 5-6 (citing App., Vol. II at 326).
6

The parties do not dispute that the video is an accurate
depiction of the subsequent events. Rather, they dispute what the
video shows. Because this is an appeal from a grant of summary
judgment, we describe the facts viewing the video in the light
most favorable to the Estate, as the nonmoving party. Emmett v.
Armstrong, 973 F.3d 1127, 1131 (10th Cir. 2020).
7

8

Neither party has identified this object.

9 The district court and the officers view the video as showing
that Dominic backed away and the officers followed him into the
garage. But the video shows Officer Girdner took the first step

App-5
continues gesturing and walking toward Dominic,
through the doorway and into the garage. Dominic
turns and walks to the back of the garage, as Officer
Girdner continues to point at and follow him. Officers
Reed and Vick then follow Dominic and Officer
Girdner into the garage. The officers claim that before
the sound starts on the video, Officer Girdner ordered
Dominic to stop. 10
When Dominic reaches the back of the garage, he
turns around briefly to face the officers. Then he turns
to the work bench on the back wall of the garage and
grabs a hammer hanging above it. As Dominic faces
the officers with the hammer, the officers back up and
draw their guns. Dominic initially grasps the hammer
with both hands, as if preparing to swing a baseball
bat. But then he drops his left hand down, holding it
out in front of him as if to signal the officers to stop or
to create distance between himself and them. Dominic
holds the hammer in his right hand just above his
head.
At this point, Officer Reed is standing in the
middle of the three officers with Officer Girdner to
Officer Reed’s left, and Officer Vick to Officer Reed’s
toward Dominic, and Dominic took a step back only after Officer
Girdner moved toward him. At the very least, a jury could so view
it, and the facts must be taken in the light most favorable to the
Estate in this procedural posture.
10 The officers also claim that before the sound starts, Dominic
said, “One of us is going to fucking die tonight.” The Estate
disputes this claim, and the district court did not consider it as
part of its analysis. App., Vol. III at 600 n.4. Because we must
view the facts in the light most favorable to the Estate, we also
do not consider the alleged statement.

App-6
right. The audio starts about this time and records the
officers yelling at Dominic to drop the hammer. The
officers repeatedly shout at Dominic, telling him to
drop it, and he repeatedly refuses, saying “No.” Ex. 7
at 00:30-00:40. During this exchange Dominic slowly
moves to the officers’ left, coming from behind
furniture, so that the officers are the only obstruction
between Dominic and the exit. Officer Girdner
estimated there were about eight to ten feet between
himself and Dominic.
At this point, Officer Reed states he has decided
to “go less lethal,” and he holsters his gun and pulls
out his taser. The officers continue to order Dominic to
drop the hammer, and Dominic responds, “I have done
nothing wrong here, man. I’m in my house. I’m doing
nothing wrong.” Ex. 7 at 00:45-00:49. 11 Officer Reed
then takes a few steps toward Dominic, and Dominic
says, “I see your taser.” Ex. 7 at 00:50-00:52. An officer
then yells, “Drop it now,” and Dominic again says,
“No.” Ex. 7 at 00:50-00:52. During this exchange,
Dominic appears to pull the hammer back behind his
head. But he is still talking to the officers, relatively
calmly, with one hand outstretched. In response to
Dominic’s movement with the hammer, Officers
Girdner and Vick fire multiple shots. Dominic doubles
over into a squatting position as the bullets hit him.
Still holding the hammer, he groans and raises the
11 Despite this statement, the wording in the district court’s
order, and the Estate’s briefing that Dominic was killed in “his
own garage,” Aplt. Br. at 13, 20, the property was legally owned
by Joy at the time of this incident. Dominic may have had
permission to be on the property earlier that day or at other times
to access the tools he kept in the garage.

App-7
hammer. Officer Girdner fires again. The officers yell
one last time for Dominic to drop the hammer, and he
does. Next, the officers order Dominic to get on the
ground and he rocks back, falling to the ground.
Emergency Medical Services later transported
Dominic to a hospital where he was pronounced dead.
B. Procedural History
The Estate filed the operative Second Amended
Complaint on October 23, 2018, in which it asserted a
§ 1983 claim against Officers Vick and Girdner as well
as a Monell claim against the City of Tahlequah (the
“City”). The officers and the City filed separate
motions for summary judgment. The district court
entered two orders on September 25, 2019: one
granted summary judgment to the officers on the basis
of qualified immunity and one granted summary
judgment to the City. The Estate filed a timely appeal
on October 25, 2019. The appeal challenges only the
district court’s grant of summary judgment to the
officers.
II. DISCUSSION
A. Standard of Review
“We review grants of summary judgment based on
qualified immunity de novo.” McCoy v. Meyers, 887
F.3d 1034, 1044 (10th Cir. 2018) (quotation marks
omitted). We will affirm when “the movant shows that
there is no genuine dispute as to any material fact and
the movant is entitled to judgment as a matter of law.”
Fed. R. Civ. P. 56(a). “In applying this standard, we
view the evidence and the reasonable inferences to be
drawn from the evidence in the light most favorable to
the nonmoving party.” Schaffer v. Salt Lake City
Corp., 814 F.3d 1151, 1155 (10th Cir. 2016) (quotation

App-8
marks omitted). “A fact is material if, under the
governing law, it could have an effect on the outcome
of the lawsuit.” Smothers v. Solvay Chems., Inc., 740
F.3d 530, 538 (10th Cir. 2014) (quotation marks
omitted). “When the record on appeal contains video
evidence of the incident in question . . . we will accept
the version of the facts portrayed in the video . . . only
to the extent that it ‘blatantly contradict[s]’ the
plaintiff’s version of events.” Emmett v. Armstrong,
973 F.3d 1127, 1131 (10th Cir. 2020) (alterations in
original) (quoting Scott v. Harris, 550 U.S. 372, 380
(2007)).
B. Legal Background
1.

Qualified Immunity

“The doctrine of qualified immunity shields
officials from civil liability so long as their conduct
‘does not violate clearly established statutory or
constitutional rights of which a reasonable person
would have known.’” Mullenix v. Luna, 557 U.S. 7, 11
(2015) (per curiam) (quoting Pearson v. Callahan, 555
U.S. 223, 231 (2009)). A defendant’s assertion of
qualified immunity from suit under 42 U.S.C. § 1983
results in a presumption of immunity. Estate of Smart
by Smart v. City of Wichita, 951 F.3d 1161, 1168 (10th
Cir. 2020). A plaintiff “can overcome this presumption
only by showing that (1) the officers’ alleged conduct
violated a constitutional right, and (2) it was clearly
established at the time of the violation, such that
every reasonable official would have understood, that
such conduct constituted a violation of that right.”
Reavis ex rel. Estate of Coale v. Frost, 967 F.3d 978,
984 (10th Cir. 2020) (citation and internal quotation
marks omitted). The plaintiff must satisfy both prongs

App-9
to overcome a qualified immunity defense, and we may
exercise our discretion as to which prong to address
first. See Pearson, 555 U.S. at 236.
2.

Excessive
Force
Amendment

Under

the

Fourth

“Excessive force claims can be maintained under
the Fourth, Fifth, Eighth, or Fourteenth Amendment,
depending on where the plaintiff finds himself in the
criminal justice system at the time of the challenged
use of force.” McCowan v. Morales, 945 F.3d 1276,
1282-83 (10th Cir. 2019) (internal quotation marks
omitted). Where, as here, the alleged excessive force
occurred prior to arrest, it is the Fourth Amendment
that applies. Estate of Booker v. Gomez, 745 F.3d 405,
419 (10th Cir. 2014).
“To state an excessive force claim under the
Fourth Amendment, plaintiffs must show both that a
seizure occurred and that the seizure was
unreasonable.” Thomas v. Durastanti, 607 F.3d 655,
663 (10th Cir. 2010) (internal quotation marks
omitted). “[A]pprehension by the use of deadly force is
a seizure subject to the reasonableness requirement of
the Fourth Amendment.” Tennessee v. Garner, 471
U.S. 1, 7 (1985). Reasonableness is “judged from the
perspective of a reasonable officer on the scene, rather
than with the 20/20 vision of hindsight.” Graham v.
Connor, 490 U.S. 386, 396 (1989). “The calculus of
reasonableness must embody allowance for the fact
that police officers are often forced to make splitsecond judgments—in circumstances that are tense,
uncertain, and rapidly evolving—about the amount of
force that is necessary in a particular situation.” Id. at
396-97.

App-10
“[T]he ‘reasonableness’ inquiry in an excessive
force case is an objective one: the question is whether
the officers’ actions are ‘objectively reasonable’ in light
of the facts and circumstances confronting them,
without regard to their underlying intent or
motivation.” Id. at 397. This is a “totality of the
circumstances” analysis. Garner, 471 U.S. at 8-9.
When considering “the facts and circumstances of each
particular case,” we specifically consider three factors
outlined by the Supreme Court in Graham: (1) “the
severity of the crime at issue,” (2) “whether the suspect
poses an immediate threat to the safety of the officers
or others,” and (3) “whether he is actively resisting
arrest or attempting to evade arrest by flight.” 490
U.S. at 396. We need touch only briefly on the first and
third factors, which the district court found favored
the Estate, because the parties largely agree the
district court evaluated them correctly. 12
Our precedents instruct that the Graham factors
are applied to conduct which is “immediately
connected” to the use of deadly force. Romero v. Bd. of
Cnty. Comm’rs of Cnty. of Lake, 60 F.3d 702, 705 n.5
(10th Cir. 1995) (quotation marks omitted). Officers’
The officers argue with regard to the first factor that
“[a]lthough the initial encounter only involved a misdemeanor
trespass the actions of [Dominic] during the encounter raised
concern . . . including [Dominic’s] ‘fidgety’ stance and refusal to
be patted down for weapons . . . [and] intentional retreat into the
garage.” Aple. Br. at 15 (quoting App., Vol. I at 198). But the
officers do not claim they suspected Dominic of a more severe
crime. And the officers do not address the third factor at all. The
Estate, for its part, does not disagree with the district court’s
analysis of the first and third factors, but asserts these factors
were improperly underweighted.
12

App-11
conduct prior to the seizure is also relevant to this
inquiry: “The reasonableness of [officers’] actions
depends both on whether the officers were in danger
at the precise moment that they used force and on
whether [their] own reckless or deliberate conduct
during the seizure unreasonably created the need to
use such force.” Sevier v. City of Lawrence, 60 F.3d
695, 699 (10th Cir. 1995) (footnote omitted). We have
held that even when an officer uses deadly force in
response to a clear threat of such force being employed
against him, the Graham inquiry does not end there.
Allen v. Muskogee, 119 F.3d 837, 839, 841 (10th Cir.
1997) (holding a rational jury could conclude officers’
reckless conduct created lethal situation and that
would constitute a violation of a decedent’s Fourth
Amendment rights). Instead, we consider whether the
Graham factors were met under the totality of the
circumstances, including whether the officers
approached the situation in a manner they knew or
should have known would result in escalation of the
danger. See id. at 841.
For example, in Allen, the decedent, Terry Allen,
“left his home after an altercation with his wife and
children.” 119 F.3d at 839. The altercation was
reported to police, along with information that Mr.
Allen had several guns and ammunition with him and
had threatened family members. Id. Shortly
thereafter, Mr. Allen’s sister reported that Mr. Allen
was parked in front of her house and was threatening
suicide. Id. When police arrived, Mr. Allen was “sitting
in the driver’s seat with one foot out of the vehicle. He
had a gun in his right hand, which was resting on the
console between the seats.” Id. After removing the
bystanders, a Lieutenant Smith repeatedly told Mr.

App-12
Allen to drop the gun, but he refused. Id. Two
additional officers arrived on the scene, and the
situation soon escalated:
Lt. Smith then reached into the vehicle and
attempted to seize Mr. Allen’s gun, while
Officer [McDonald] held Mr. Allen’s left arm.
Officer Bryan Farmer, who arrived with
Officer [McDonald], approached Mr. Allen’s
car from the passenger side, and attempted to
open a passenger side door. Mr. Allen reacted
by pointing the gun toward Officer Farmer,
who ducked and moved behind the car. Mr.
Allen then swung the gun toward Lt. Smith
and Officer McDonald, and shots were
exchanged. Lt. Smith and Officer McDonald
fired a total of twelve rounds into the vehicle,
striking Mr. Allen four times. The entire
sequence, from the time Lt. Smith arrived to
the time Mr. Allen was killed, lasted
approximately ninety seconds.
Id. Mr. Allen’s estate sued, asserting that the officers
used excessive force. After the district court granted
the individual officers summary judgment on the
ground their actions did not violate the Fourth
Amendment, we reversed, holding that “the officers’
preceding actions were so ‘immediately connected’ to
Mr. Allen’s threat of force that they should be included
in the reasonableness inquiry,” and that “a reasonable
jury could conclude . . . that the officers’ actions were
reckless and precipitated the need to use deadly force.”
Id. at 841 (quoting Romero, 60 F.3d at 705 n.5).
We reached a similar conclusion in Estate of
Ceballos. There, Quianna Vigil called police to report

App-13
her husband Jamie Ceballos “was in their driveway
with a baseball bat ‘acting crazy,’ and that he was
drunk and probably on drugs.” Estate of Ceballos, 919
F.3d at 1208-09. Ms. Vigil indicated she had left the
home but wanted Mr. Ceballos removed so she could
return to put her seventeen-month-old child to bed. Id.
at 1209. Defendant William Husk and several other
police officers responded, finding Mr. Ceballos alone in
the driveway. Id. at 1209-10. They repeatedly ordered
Mr. Ceballos to drop his bat, but instead he went into
his garage. Id. at 1210. Officer Husk drew his firearm
and another officer drew a taser. Id. Mr. Ceballos then
came out of the garage and began advancing toward
the officers, who did not retreat. Id. at 1210-11.
Instead, they repeatedly ordered him to drop the bat.
Id. at 1210. When Mr. Ceballos did not comply, Officer
Husk fired, killing him. Id. at 1211.
Mr. Ceballos’s family sued, claiming the officers
acted recklessly, thereby creating the need for deadly
force. We agreed, and further concluded that our
earlier “decision in Allen would have put a reasonable
officer on notice that the reckless manner in which
Husk approached Ceballos and his precipitous resort
to lethal force violated clearly established Fourth
Amendment law.” Id. at 1220.
We also applied Allen in Hastings v. Barnes, 252
F. App’x 197 (10th Cir. 2007) (unpublished). 13 There,

13 Although this decision is unpublished, we relate the facts in
some detail to explain why we find it persuasive. See Noreja v.
Comm’r, SSA, 952 F.3d 1172, 1176 (10th Cir. 2020) (“[I]n
appropriate circumstances [we look] to an unpublished opinion if
its rationale is persuasive and apposite to the issue presented.”);

App-14
Todd Hastings telephoned Family and Children
Services, expressing thoughts of suicide and a plan to
asphyxiate himself. Id. at 198. Four police officers
responded to perform a well-being check, after being
informed that Mr. Hastings was suicidal, non-violent,
and not known to be armed. Id. at 198-99. The officers
arrived at Mr. Hastings’s residence, engaged him in
conversation, and confirmed he had threatened to
harm himself. Id. at 199. When an officer asked Mr.
Hastings to step onto the front porch and talk, Mr.
Hastings seemed nervous and said he wanted to get
his shoes. Id. Before Mr. Hastings could shut the door,
one officer blocked it with his foot and all four officers
entered the house and cornered Mr. Hastings in his
bedroom. Id. As the officers opened the bedroom door,
Mr. Hastings picked up a Samurai sword, initially
holding it “in a defensive manner, not aggressively.”
Id. at 199-200. The officers repeatedly told Mr.
Hastings to put the sword down, but he did not comply
Id. at 200. When one of the officers employed pepperspray, Mr. Hastings “turned the sword toward the
officers and began moving toward them.” Id. The
officers “attempted to retreat[,] but it was too crowded
in the bedroom’s doorway.” Id. Two of the officers fired
at Mr. Hastings, killing him. Id.
Mr. Hastings’s brother sued the officers who fired
shots. Id. at 198. The officers moved for summary
judgment on the issue of qualified immunity, but the
district court denied their motion. Id. On appeal, this
court affirmed.
10th Cir. R. 32.1(A) (“Unpublished decisions are not precedential,
but may be cited for their persuasive value.”).

App-15
We acknowledged that, “[a]t the moment of the
shooting, [Mr. Hastings] was advancing toward [the
officers] with the sword.” Id. at 203. Thus, “viewed in
isolation, the shooting was objectively reasonable
under the Fourth Amendment.” Id. Nevertheless, we
looked to Allen and Sevier, along with Medina v.
Cram, 252 F.3d 1124, 1132 (10th Cir. 2001), and Jiron
v. City of Lakewood, 392 F.3d 410, 415 (10th Cir.
2004), for the general principle that officers’ reckless
and deliberate conduct in creating a situation
requiring deadly force may result in a Fourth
Amendment violation. Id.
Applying that principle, we held that
viewing the facts in the light most favorable
to [the plaintiff], a constitutional violation
occurred. [Mr. Hastings] was not a criminal
suspect. He was a potentially mentally
ill/emotionally disturbed individual who was
contemplating suicide and had called for help.
Rather than attempt to help [Mr. Hastings,
the officers] crowded themselves in [his]
doorway (leaving no room for retreat), issued
loud and forceful commands at him and
pepper-sprayed him, causing him to become
even more distressed. At the time they
pepper-sprayed him, [Mr. Hastings] was not
verbally or physically threatening them. At
least one of the officers heard [Mr. Hastings]
say “‘help me’” or “‘they are coming to get
me.’” (R. App. at 210.) Although [Mr.
Hastings] had a sword, his stance, at least up
until the time he was pepper-sprayed, was
defensive not aggressive, posing no threat to

App-16
anyone but himself. A reasonable jury could
find that under these facts [the officers’]
actions unreasonably escalated the situation
to the point deadly force was required.
Id. (footnote omitted). Moreover, we held the officers
were put on notice this would be a violation by Allen
and Sevier, which “clearly establish[ed] that an officer
acts unreasonably when he aggressively confronts an
armed and suicidal/emotionally disturbed individual
without gaining additional information or by
approaching him in a threatening manner” Id. at 206.
Allen, Ceballos, and Hastings teach that the
totality of the facts to be considered in determining
whether the level of force was reasonable includes any
immediately connected actions by the officers that
escalated a non-lethal situation to a lethal one.
Accordingly, the totality of the circumstances includes
application of the Graham and Estate of Larsen factors
to the full encounter, from its inception through the
moment the officers employed force.
C. Analysis
The Estate makes three arguments why the
officers are liable: (1) the use of deadly force was not
justified when the officers opened fire because
Dominic’s movements were defensive; (2) Officer
Girdner’s final shot was unjustified because even if
Dominic originally presented a threat, he was no
longer a threat when Officer Girdner fired the final
shot; and (3) even if the use of deadly force was
justified at the instance of shooting, the officers are
nonetheless liable because they recklessly and
deliberately created the circumstances necessitating
deadly force. The officers argue that Dominic posed a

App-17
serious threat to their safety through his aggressive
actions, justifying the use of deadly force, and that
Dominic’s arming himself with the hammer was not
the result of their actions. The parties also dispute
whether, if the officers’ conduct violated Dominic’s
rights, decisions from the Supreme Court or this court
clearly established such conduct was unlawful.
The district court agreed with the officers, but it
did so based on findings from the video evidence that
demonstrate a failure to view that evidence in the
light most favorable to the Estate. First, the district
court found Dominic precipitated the retreat into the
garage. As indicated, we conclude that a reasonable
jury could view the video as showing that Officer
Girdner took the first step forward, and Dominic
responded by moving deeper into the garage. The
district court also described Dominic’s conduct in the
garage, right before shots were fired, as “rais[ing] the
hammer still higher as if he might be preparing to
throw it, or alternatively, charge the officers.” App.,
Vol. III at 600. Although this is one fair interpretation
of the video, we are not convinced it is the only way it
can be viewed. A reasonable jury could find that
Dominic was assuming a defensive, rather than an
aggressive, stance.
Viewing the facts in the light most favorable to the
nonmoving party—that Dominic acted defensively—
does not, by itself, warrant reversal if the facts,
properly construed, still support qualified immunity.
We undertake that analysis now, ultimately
concluding that, if the facts are found by the jury in
the light most favorable to the Estate, the officers are

App-18
not entitled to qualified immunity. We therefore
reverse the decision of the district court.
1.

Constitutional Violation

To determine whether a reasonable jury could
find that the officers violated Dominic’s constitutional
right to be free from excessive force, we apply the
Graham factors to the facts in the light most favorable
to the Estate. For purposes of discussion, we consider
the first and third factors before turning to the crucial
second factor.
a.

The Graham factors
i.

Severity of the crime

Based on the 911 call, the officers may have had
probable cause to believe the initial encounter
involved misdemeanor trespass. 14 It is undisputed
that the officers knew Dominic was Joy’s ex-husband,
he was intoxicated, and Joy wanted him removed from
the property. There is no indication from the body
camera video that Dominic was violent or otherwise
belligerent at the beginning of his encounter with the
officers. Accordingly, the severity of this nonviolent
misdemeanor is low. When the severity of the crime is
low, such as when the alleged crime was a
misdemeanor or unaccompanied by violence, this
factor weighs against an officer’s use of force. See
Fogarty v. Gallegos, 523 F.3d 1147, 1160 (10th Cir.
2008) (concluding the severity of the crime was low
when the suspect engaged in disorderly conduct, a
petty misdemeanor under New Mexico law, “and the
14 Although the dispatcher on the 911 call told Joy that Dominic
would be arrested for public intoxication, neither the district
court nor the parties identify this as the crime at issue.

App-19
amount of force used should have been reduced
accordingly”).
ii.

Active resistance or evasion of arrest

It is undisputed that the officers did not intend to
arrest Dominic when they first encountered him in the
garage doorway. If the officers had no intent to arrest
Dominic, he could not have been actively resisting
arrest or attempting to evade arrest by flight when he
backed into the garage in response to Officer Girdner’s
approach.
The first and third Graham factors therefore
weigh against finding the officers’ use of force
reasonable.
iii. Immediacy of threat
“The second Graham factor . . . is undoubtedly the
‘most important’ and fact intensive factor in
determining the objective reasonableness of an
officer’s use of force.” Pauly v. White, 874 F.3d 1197,
1215-16 (10th Cir. 2017) (quoting Bryan v.
MacPherson, 630 F.3d 805, 826 (9th Cir. 2010)). This
is particularly true in deadly force cases, because
“deadly force is justified only if a reasonable officer in
the officer’s position would have had probable cause to
believe that there was a threat of serious physical
harm to himself or others.” Cordova v. Aragon, 569
F.3d 1183, 1192 (10th Cir. 2009).
In evaluating the degree of threat we consider
“(1) whether the officers ordered the suspect to drop
his weapon, and the suspect’s compliance with police
commands; (2) whether any hostile motions were
made with the weapon towards the officers; (3) the
distance separating the officers and the suspect; and

App-20
(4) the manifest intentions of the suspect.” Estate of
Larsen ex rel. Sturdivan v. Murr, 511 F.3d 1255, 1260
(10th Cir. 2008).
The Estate makes three arguments as to why the
second Graham factor should weigh in its favor. First,
it contends Dominic did not pose a threat of serious
physical harm because he was “‘armed’ only with a
hammer . . ., did not charge or lunge at the [o]fficers
and did not swing or slash the hammer toward the
[o]fficers.” Aplt. Br. at 16. According to the Estate,
when Dominic moved the hammer back behind his
head, he did so “in a defensive stance.” Aplt. Br. at 17.
Second, the Estate contends, “there was clearly no
reasonable basis for [Officer] Girdner to fire another
shot into [Dominic] after he was already, and
obviously, critically wounded, crouched over and
helpless.” Aplt. Br. at 20. Third, the Estate argues
“any arguable threat posed by [Dominic] was directly
attributable to the officers’ own reckless or deliberate
conduct during the seizure.” Aplt. Br. at 18.
The officers disagree and argue that, by refusing
to put the hammer down, Dominic indisputably posed
a threat to them. They suggest Dominic was “rais[ing]
the hammer higher” and taking “a stance which
looked like he was going to charge at the officers or
throw the hammer at them,” and they thus reasonably
believed he posed an immediate threat of serious
bodily injury. Aple. Br. at 16-17. With respect to the
final shot, Officer Girdner contends he fired in
response to Dominic “yell[ing] out and rais[ing] the
hammer again.” Aple. Br. at 17. Thus, the officers
contend, the use of deadly force was reasonable.

App-21
There is no dispute Dominic repeatedly refused to
obey the officers’ commands to drop his weapon. It is
also undisputed that Officer Girdner was within eight
to ten feet of Dominic. And Officer Reed, having moved
in with his taser, was even closer.
Whether Dominic made any hostile movements
toward the officers is less clear. Viewing the evidence
in the light most favorable to the Estate, Dominic
moves the hammer behind his head in a defensive
stance, and Dominic does not charge or lunge at the
officers.
Dominic’s manifest intentions are also susceptible
to conflicting interpretations. Although Dominic does
raise the hammer above his head, the video shows no
winding up movements made by Dominic in
preparation of throwing it at the officers. Moreover,
immediately before raising the hammer in response to
Officer Reed’s approach, Dominic says, in a relatively
calm manner, “I have done nothing wrong here, man.
I’m in my house. I’m doing nothing wrong.” Ex. 7 at
00:45-00:49. Thus, while the district court’s
interpretation of the video evidence is plausible, a
reasonable jury could conclude Dominic did not make
any movements to put the officers in fear of serious
physical harm. This does not end the inquiry,
however, because “[t]he ‘reasonableness’ of a
particular use of force must be judged from the
perspective of a reasonable officer on the scene, rather
than with the 20/20 vision of hindsight.” Graham, 490
U.S. at 396. Accordingly, we must analyze whether the
officers may have reasonably misperceived this
conduct, which we do in part II.C.1.a.v, infra. Before
undertaking that analysis, however, we first apply the

App-22
Graham factors to the final shot, which is separately
challenged by the Estate.
iv. The final shot
The Estate argues that even if the initial shots
could be justified, the final shot—fired while Dominic
was wounded and on the ground—cannot be. In Estate
of Smart, we considered a similar claim. There, we
explained that where an officer has an “opportunity to
perceive that any threat had passed by the time he
fired his final shots,” he violates the Fourth
Amendment by shooting anyway. 951 F.3d at 1175-76.
The Estate argues that occurred here. The officers
disagree, painting the garage encounter as a rapidly
developing, highly charged incident that required
them to make split-second decisions. Aple. Br. at 1920 (quoting Plumhoff v. Rickard, 572 U.S. 765, 777
(2014) (“It stands to reason that, if police officers are
justified in firing at a suspect in order to end a severe
threat to public safety, the officers need not stop
shooting until the threat has ended.”)). See also
Cordova, 569 F.3d at 1188 (“Reasonableness ‘must be
judged from the perspective of a reasonable officer on
the scene,’ who is ‘often forced to make split-second
judgments—in circumstances that are tense,
uncertain, and rapidly evolving—about the amount of
force that is necessary in a particular situation.’”)
(quoting Graham, 490 U.S. at 396-97).
It is true that the speed of the encounter makes it
difficult to separate the analysis of the first shots and
the final one. The first and third factors from
Graham—the severity of the crime and whether
Dominic was evading arrest—are not altered by the
intervening shots. Applying the Estate of Larsen

App-23
factors to assess the immediacy of the threat under the
second Graham factor, Dominic’s failure to comply
with police commands continued after the first shots
and the distance between the officers and Dominic did
not materially change, although the officers appear to
take a step back. With respect to hostile movements
and manifest intent, there are at most two seconds
between the initial shots and the last one, during
which Dominic does appear to lift the hammer. But he
is in a crouched position and angled away from the
officers when he does so, and it is unclear whether the
cry he utters is due to pain or aggression.
Thus, as with the initial volley, the circumstances
surrounding the final shot are subject to different
interpretations. And those facts are part of the totality
of the circumstances that we must consider in
determining whether the officers are entitled to
qualified immunity.
v.

Reasonable mistake

Even if the officers misperceived Dominic’s
defensive movements as aggressive, they are entitled
to qualified immunity if the misperception was
reasonable. Estate of Turnbow v. Ogden City, 386 F.
App’x 749, 753 (10th Cir. 2010) (unpublished) (“The
officers are not required to be correct in their
assessment of the danger presented by the situation,
only that their assessment be objectively
reasonable.”). This applies both to the officers’ possible
misperception that Dominic’s defensive movements
were aggressive prior to firing and to Officer Girdner’s
possible misperception that Dominic remained a
threat after the first volley of shots.

App-24
That Dominic had only a hammer rather than a
gun or other long-range weapon, was engaging
verbally with the officers, and never dropped his left
arm from what can be interpreted as a defensive
position, could allow a jury to find that the officers
unreasonably misperceived his raising the hammer as
an aggressive movement. And that Dominic was on his
knees angled away from the officers when he again
raised the hammer could allow a jury to conclude
Officer Girdner’s final shot was also based on an
unreasonable misperception of Dominic as a
continuing threat. To be sure, a reasonable jury could
also find the officers acted reasonably under the
circumstances they perceived, even if they were
mistaken.
Taken together, the Graham factors as applied to
the few seconds in which Dominic was wielding a
hammer would present a close call on whether
summary judgment was proper. But we need not and
do not reach any conclusion on that issue because our
review is not limited to that narrow timeframe.
Instead, we consider the totality of circumstances
leading to the fatal shooting, including the actions
that resulted in Dominic being cornered in the back of
the garage by three armed police officers. See Sevier,
60 F.3d at 699 (“The reasonableness of [officers’]
actions depends both on whether the officers were in
danger at the precise moment that they used force and
on whether [their] own reckless or deliberate conduct
during the seizure unreasonably created the need to
use such force.” (footnote omitted)).

App-25
b.

Conduct of police officers

The district court found “no issue for a reasonable
jury” as to whether the officers’ conduct toward
Dominic unreasonably created the need for the use of
deadly force. App., Vol. III at 603. The district court
likely arrived at this conclusion based on its view that
Dominic “backed up and then turned and walked away
from [Officer] Girdner to the back of the garage.” App.,
Vol. III at 599. But, as explained, the video seems to
depict Officer Girdner taking the first step toward
Dominic, causing Dominic to step back from the side
door into the garage. Then, as Officer Girdner
continues to move forward, Dominic retreats further
into the garage, eventually reaching the work bench
and retrieving the hammer. When the encounter
began, the officers had no basis for an involuntary
frisk 15 and no intention of arresting Dominic.
When the video is viewed in the light most
favorable to the Estate, Officer Girdner backs Dominic
Officer Girdner stated he asked to pat Dominic down because
he “acted nervous and fidgety when I encountered him,” App.,
Vol. I at 198, and “was wearing clothes at the time where it would
have been . . . easy to conceal a weapon,” App., Vol. II at 326. But
the “fidgeting,” according to Officer Reed, was Dominic touching
his own chest. App., Vol. II at 354-55. This movement was
accompanied by Dominic stating “Look, I don’t have anything” in
response to Officer Girdner’s request to pat him down. App., Vol.
II at 354-55. A jury could therefore disbelieve Officer Girdner’s
testimony that Dominic was fidgeting prior to the request,
believing instead Officer Reed’s testimony that, not only was the
fidgeting a response to the request, it was made as part of
Dominic’s overall communication that he was unarmed. Further,
“nervousness alone cannot support reasonable suspicion.” United
States v. Harris, 313 F.3d 1228, 1236 (10th Cir. 2002) (quotation
marks omitted). In the absence of an argument to the contrary
15

App-26
into the garage and the other officers follow. By the
time Dominic turns around to face the officers, he is
effectively cornered in the garage. The three officers,
who claimed they had no intention of arresting him
and wanted only to get him a ride out of there, are now
blocking the only exit from the garage and the only
path to the ride that Dominic claims is on the way.
Dominic, who the officers knew to be intoxicated, then
grabs a hammer and extends one arm toward the
officers. When Dominic pulls the hammer back, he
does so in response to Officer Reed’s advance with the
taser. 16 Thus, we must determine whether a jury could
conclude Officer Girdner’s initial advance toward
Dominic and the officers’ subsequent cornering of
Dominic in the back of the garage recklessly created
the situation that led to the fatal shooting.
The Estate claims the jury could reach that
finding, pointing to our decisions in Allen v. Muskogee,
119 F.3d 837 (10th Cir. 1997), and Estate of Ceballos
v. Husk, 919 F.3d 1204 (10th Cir. 2019). We agree
those decisions are instructive. As discussed above, in
each of those decisions we held officers violated the
Fourth Amendment where they recklessly confronted
armed and impaired individuals, creating the need for
the use of deadly force.
Here, after Dominic declined Officer Girdner’s
request to frisk him, Officer Girdner advanced toward
Dominic, and Dominic retreated into the garage. All
from the officers, we assume Officer Girdner lacked reasonable
suspicion for an involuntary pat down.
16 Because Officer Reed is not a defendant, the reasonableness
of his actions, i.e., his advancement toward Dominic with the
taser, it not at issue in this case.

App-27
three officers followed, cornering Dominic in the
garage where he armed himself with a hammer. The
full encounter, from the request to frisk to Dominic’s
collapse on the floor, took less than a minute and is
properly considered as part of the totality of the
circumstances. See Allen, 119 F.3d at 841 (“The entire
incident, from the time [the officer] arrived to the time
of the shooting, took only ninety seconds. Clearly, the
officers’ preceding actions were so immediately
connected to Mr. Allen’s threat of force that they
should be included in the reasonableness inquiry.”
(internal quotation marks omitted)).
As in Allen and Estate of Ceballos, the officers
here advanced upon an impaired individual, likely
escalating the tension and fear. See Allen, 119 F.3d at
841, 843 (describing the officers’ approach and
characterizing Mr. Allen as an “armed mentally ill or
emotionally upset person[]”); see also Estate of
Ceballos, 919 F.3d at 1217 (“[T]he responding officers
knew Ceballos’s capacity to reason was diminished,
whatever the underlying reason might have been—
mental health problems, emotional distress,
drunkenness, or drugs.”). And like the officers in
Hastings, the officers here followed Dominic into an
enclosed space and blocked the exit, resulting in
Dominic picking up a handy implement to defend
himself. Hastings, 252 F. App’x at 199. The officers in
both cases drew their weapons in response to the
individual grabbing a weapon and fired only after the
individual made what the officers perceived as an
offensive movement. But the arming and perceived
offensive movements were in direct response to the
officers’ conduct. Id. at 199, 203. Thus, a jury could
reasonably determine that the officers here, like those

App-28
in Estate of Ceballos, Allen, and Hastings,
unreasonably escalated a non-lethal situation into a
lethal one through their own deliberate or reckless
conduct.
c.

Synthesis

Our analysis of the Graham factors at the
moment the officers used deadly force was
inconclusive, but instructive. We determined a
reasonable jury could conclude Dominic’s movement
was purely defensive, but we reached no conclusion as
to whether a misperception would be reasonable. This
is because any analysis of whether a reasonable jury
could find that the use of force here was not justified,
must include the fact that an intoxicated and unarmed
Dominic was backed into the garage by three armed
officers, at which point Dominic armed himself with
the hammer.
The application of Allen, Hastings, and Estate of
Ceballos shows that the officers’ role in causing this
essential set of facts is not only relevant, but
determinative here. When the officers first made
contact with Dominic, the Graham analysis would
likely not have justified any force, let alone deadly
force. A jury could find that the officers recklessly
created a lethal situation by driving Dominic into the
garage and cornering him with his tools in reach.
When Dominic grabbed the hammer, the officers drew
firearms and began shouting. A reasonable jury could
find that the officers’ reckless conduct unreasonably
created the situation that ended Dominic’s life.
***
Viewing the facts in the light most favorable to the
Estate, including the actions of the police officers that

App-29
may have recklessly escalated the situation, a
reasonable jury could find that Officers Girdner and
Vick violated Dominic’s Fourth Amendment right to
be free from unreasonable seizure.
2.

Clearly Established Law

We have concluded that summary judgment was
improper on the first prong of qualified immunity—
violation of a constitutional right. But we must uphold
the grant of summary judgment unless the Estate can
also establish the second prong necessary to overcome
the presumption of qualified immunity—that the
constitutional right violated was clearly established.
Pearson, 555 U.S. at 237, 243.
In making that determination, we may
“not . . . define clearly established law at a high level
of generality.” City of Escondido v. Emmons, 139 S. Ct.
500, 503 (2019) (per curiam) (quoting Kisela v.
Hughes, 138 S. Ct. 1148, 1152 (2018) (per curiam)).
And this directive “is particularly important in
excessive force cases.” Id. “Nevertheless, our analysis
is not a scavenger hunt for prior cases with precisely
the same facts, and a prior case need not be exactly
parallel to the conduct here for the officials to have
been on notice of clearly established law.” Reavis, 967
F.3d at 992 (quotation marks omitted); see Weigel v.
Broad, 544 F.3d 1143, 1153 (10th Cir. 2008) (“The
plaintiff is not required to show . . . that the very act
in question previously was held unlawful . . . .”
(quotation marks omitted)). Rather, “‘the salient
question is whether the state of the law’ at the time of
an incident provided ‘fair warning’ to the defendants
‘that their alleged [conduct] was unconstitutional.’”
Tolan v. Cotton, 572 U.S. 650, 656 (2014) (alteration

App-30
in original) (quoting Hope v. Pelzer, 536 U.S. 730, 741
(2002)). This requirement is satisfied where there
exists “a Supreme Court or Tenth Circuit decision on
point, or the clearly established weight of authority
from other courts must have found the law to be as the
plaintiff maintains.” Halley v. Huckaby, 902 F.3d
1136, 1149 (10th Cir. 2018) (quotation marks omitted).
Having held that a reasonable jury could find the
officers violated the Fourth Amendment under the
Allen line of cases, our analysis of clearly established
law narrows to Allen and Sevier. 17 As an unpublished
decision, Hastings “provides little support for the
notion that the law is clearly established.” Grissom v.
Roberts, 902 F.3d 1162, 1168 (10th Cir. 2018)
(quotation marks omitted). Estate of Ceballos was
The Estate also relies on Tenorio v. Pitzer, 802 F.3d 1160
(10th Cir. 2015), Walker v. City of Orem, 451 F.3d 1139 (10th Cir.
2006), and Zuchel v. City & County of Denver, 997 F.2d 730 (10th
Cir. 1993). Those cases, it proffers, clearly establish that because
Dominic was “holding ‘only’ a hammer, ‘not a gun’” and “did not
charge or lunge at the [o]fficers and . . . made no other aggressive
move towards the [o]fficers,” the officers violated clearly
established law even setting aside their conduct in creating the
need for deadly force. Appellant Br. at 22 (quoting Walker, 451
F.3d at 1160).
17

Having utilized the traditional Graham analysis to pinpoint
what factors may have made the use of force justified at the
moment of the shooting, we declined to limit our analysis to that
moment. Accordingly, we need not determine whether, as the
Estate asserts, Tenorio, Walker, and Zuchel clearly establish
that, at the moment of the shooting, deadly force was unjustified.
Instead, we focus on the Allen line of cases and the question of
whether it was clearly established that in the totality of the
circumstances, the officers’ conduct (including reckless conduct
creating the need for the use of deadly force) violated Dominic’s
rights.

App-31
decided after the underlying events here and, as we
explained there, resolution of the clearly established
law prong is necessarily governed by cases published
before the alleged violation. 919 F.3d at 1219. But
Ceballos does advance our analysis because it
concludes that Allen, an opinion issued before the
officers’ actions here, clearly established
that an officer violates the Fourth
Amendment when his or her reckless or
deliberate conduct results in the need for
lethal force or when the officers rely on lethal
force unreasonably as a first resort in
confronting an irrational suspect who is
armed only with a weapon of short-range
lethality and who has been confined on his
own property. 18
Estate of Ceballos, 919 F.3d at 1219.
This clearly established law is directly applicable
to the facts in this case: Here, the officers knowingly
confronted a potentially irrational subject (Dominic
was inebriated) who was armed only with a weapon of
short-range lethality (a hammer) and who had been
confined (in a garage). Allen established that applying
lethal force after deliberately or recklessly
manufacturing the need to do so in such a scenario is
a constitutional violation. Id.; see also Hastings, 252 F.
App’x at 206 (holding officers’ conduct violated law
The inclusion of the phrase “on his own property” in Estate
of Ceballos might seem to distinguish this case in a material
manner, but that qualifier is a description of the facts in Estate
of Ceballos, not Allen. In Allen, the decedent was approached and
killed in front of his sister’s residence, not his own. 119 F.3d at
839.
18

App-32
clearly established by Allen and Sevier “that an officer
acts unreasonably when he aggressively confronts an
armed and suicidal/emotionally disturbed individual
without gaining additional information or by
approaching him in a threatening manner (i.e.,
running and screaming at him).”).
Moreover, the distinction in facts between this
case and Allen tends to show why this matter is
further from the line of reasonableness, not closer. In
Allen, the officers had not threatened the decedent,
but here Officer Girdner was moving toward Dominic,
in an apparent effort to search him without a
reasonable suspicion Dominic was armed. In Allen,
the decedent was already armed when the officers
arrived, whereas Dominic did not arm himself until
after the officers had cornered him. And in Allen, the
decedent had a gun; Dominic had only a hammer. See
Estate of Ceballos, 919 F.3d at 1216 (“Allen was armed
with a weapon—a gun—capable of harming someone
from a much greater distance and with greater lethal
potential than Ceballos’s baseball bat (or at worst, his
pocket knife)” so there was “stronger justification for
the police shooting at issue there”).
Our conclusion that Allen clearly established the
officers’ conduct was unconstitutional when viewed in
the light most favorable to the Estate, is bolstered by
our similar holdings in Hastings and Estate of
Ceballos. A reasonable officer, faced with the
circumstances here and presumptively aware of our
decision in Allen, would have known that cornering
Dominic in the garage might recklessly or deliberately
escalate the situation, such that an officer’s ultimate
use of deadly force would be unconstitutional.

App-33
III. CONCLUSION
For these reasons, we REVERSE the district
court’s grant of summary judgment to Officers
Girdner and Vick and REMAND for further
proceedings consistent with this opinion.

App-34
Appendix B
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
________________
No. 19-7056
________________
AUSTIN P. BOND, as Special Administrator of the
ESTATE OF DOMINIC F. ROLLICE, Deceased,
v.

Plaintiff-Appellant,

CITY OF TAHLEQUAH, OKLAHOMA; BRANDON VICK;
JOSH GIRDNER,
Defendants-Appellees.
________________
Filed: Dec. 28, 2020
________________
Before: MATHESON, BACHARACH, and McHUGH,
Circuit Judges.
________________
ORDER
________________
Appellees Josh Girdner and Brandon Vick’s
petition for rehearing is denied.
The petition for rehearing en banc was
transmitted to all of the judges of the court who are in
regular active service. As no member of the panel and
no judge in regular active service on the court

App-35
requested that the court be polled, that petition is also
denied.
Entered for the Court
[handwritten: signature]
CHRISTOPHER M. WOLPERT,
Clerk

App-36
Appendix C
UNITED STATES DISTRICT COURT FOR THE
EASTERN DISTRICT OF OKLAHOMA
________________
No. CIV-18-257-RAW
________________
ROBBIE EMERY BURKE, as Special Administrator of
the ESTATE OF DOMINIC F. ROLLICE, Deceased,
v.

Plaintiff,

CITY OF TAHLEQUAH, OKLAHOMA; BRANDON VICK;
JOSH GIRDNER,
Defendants.
________________
Filed: Sept. 25, 2019
________________
ORDER
________________
Before the court is the motion of the defendants
Brandon Vick and Josh Girdner for summary
judgment. Summary judgment is appropriate if “the
movant shows that there is no genuine dispute as to
any material fact and the movant is entitled to
judgment as a matter of law.” Rule 56(a) F.R.Cv.P. An
issue is genuine if there is sufficient evidence on each
side so that a rational trier of fact could resolve the
issue either way. An issue of fact is material if under
the substantive law it is essential to the proper
disposition of the claim. Sidlo v. Millercoors, LLC, 718
Fed.Appx. 718, 725 (10th Cir.2018). When applying

App-37
this standard, the court views the evidence and draws
reasonable inferences therefrom in the light most
favorable to the nonmoving party. Doe v. City of
Albuquerque, 667 F.3d 1111, 1122 (10th Cir.2012).
On August 12, 2016, defendants Vick and Girdner
(officers with the Tahlequah Police Department) shot
and killed Dominic Rollice in Rollice’s garage. Plaintiff
brings a single claim pursuant to 42 U.S.C. §1983 for
excessive force against all defendants. 1 Section 1983
does not create substantive rights but provides a
vehicle for their enforcement. See Brown v. Buhman,
822 F.3d 1151, 1161 n.9 (10th Cir.2016). When a
plaintiff alleges excessive force during an
investigation or arrest, the federal right at issue is the
Fourth Amendment right against unreasonable
seizures. Johnson v. City of Roswell, 752 Fed.Appx.
646, 650 (10th Cir.2018).
To succeed under section 1983 on an excessive
force theory, the plaintiff must show the officers used
greater force than would have been reasonably
necessary to effect a lawful arrest. Lynch v. Bd. of
County Commissioners of Muskogee County, 2019 WL
423382, *3 (10th Cir.2019). This is an objective inquiry
and courts consider the totality of the circumstances
when making it. Id.
Here, the individual officers seek summary
judgment based on qualified immunity. Public officials
enjoy qualified immunity in civil actions that are
brought against them in their individual capacities
1 At one point Officer Chase Reed was named as a defendant,
but he is not a named defendant in the second amended
complaint. His name does appear in a caption. (#28 at 7).

App-38
and that arise out of the performance of their duties.
McCoy v. Meyers, 887 F.3d 1034, 1044 (10th Cir.2018).
They are entitled to qualified immunity if their
conduct does not violate clearly established statutory
or constitutional rights. Id.
In the face of a qualified immunity defense, the
plaintiff must carry a heavy burden to show that:
(1) defendant’s actions violated a constitutional right,
and, if so, (2) the right was clearly established at the
time of defendant’s unlawful conduct. Crittenden v.
City of Tahlequah, 2019 WL 4238106, *4 (10th
Cir.2019). 2 Despite this burden-shifting, the court still
views the facts in the light most favorable to the
nonmoving party and resolves all factual disputes and
reasonable inferences in its favor. Estate v. Booker v.
Gomez, 745 F.3d 405, 411 (10th Cir.2014). 3
Much of the conduct is largely undisputed, as the
incident was captured on police “body cam” video (#478 & #56-7), which the court has reviewed. The
application of the facts to applicable legal principles is,
however, very much contested. On August 12, 2016,
Defendants “notif[ied]” this court of the Crittenden decision
by supplement (#67) to their motions. This was unnecessary,
inasmuch as the decision is an appeal from the undersigned. The
defendants argue that the facts in Crittenden are “comparable”
(#67 at 2) to the case at bar, but this court finds this to be accurate
only at a high level of generality. For example, the suspect in
Crittenden was believed to have a firearm and was hiding from
the police. In short, Crittenden is distinguishable.
2

3 If the plaintiff satisfies this two-part test, the defendant bears
the usual burden of a party moving for summary judgment to
show that there are no genuine issues of material fact and that
he or she is entitled to judgment as a matter of law. Pauly v.
White, 874 F.3d 1197, 1214 (10th Cir.2017).

App-39
Rollice’s ex-wife called 911 to complain that her exhusband was in the garage and was drunk. Girdner
was the lead officer and Reed was his backing officer,
although both arrived separately. Vick also arrived
separately. Girdner encountered Rollice in the entry
of the garage. Based on Rollice’s “fidgety” conduct,
Girdner asked him if Girdner could pat him down for
weapons.
Rollice backed up and then turned and walked
away from Girdner to the back of the garage. All three
officers followed Rollice into the garage. The video is
silent, but the officers aver that Girdner ordered
Rollice to stop but Rollice ignored the command. At the
back of the garage, Rollice reached up and grabbed a
hammer hanging on the wall over the work bench. At
this point, the video is no longer silent and the officers
can be heard yelling at Rollice to drop the hammer. 4
Rollice initially grasped the hammer with both hands,
but then shifted to his right hand and held the
hammer aloft. The officers drew their firearms. At one
point, Reed holstered his gun and drew his Taser.
Rollice moved to his right and had an
unobstructed path to Girdner. Girdner estimates that
In their affidavits, all three officers assert that, upon grabbing
the hammer, Rollice said “One of us is going to fucking die
tonight.” (#47-3 at ¶10);(#47-5 at ¶13);(#47-6 at ¶8). This
statement is not audible on the video, and plaintiff argues that it
should not be considered for summary judgment purposes. The
Tenth Circuit has not spoken, but “[e]very circuit to have
confronted this situation” (i.e., the witness most likely to
contradict the officer’s story is dead) has directed particular care
in evaluation. Flythe v. District of Columbia, 791 F.3d 13, 19
(D.C.Cir.2015). This court finds the alleged statement is not
essential to the present analysis and does not rely on it.
4

App-40
there were about 8 to 10 feet between himself and
Rollice after Rollice moved to his right. (#47-3 at ¶13).
Ultimately, Rollice raised the hammer still higher as
if he might be preparing to throw it, or alternatively,
charge the officers. At that moment, Girdner and Vick
fired their weapons. 5 Rollice went down in a kneeling
position, but still held the hammer. Reed fired his
Taser but missed. While kneeling, Rollice raised the
hammer again and Girdner fired again. 6 Rollice
dropped the hammer and fell backwards onto the floor
of the garage.
The court now addresses the two prongs of the
qualified immunity test. First, was there a violation of
a constitutional right? “Determining whether the force
used to effect a particular seizure is reasonable under
the Fourth Amendment requires a careful balancing
of the nature and quality of the intrusion on the
individual’s Fourth Amendment interests against the
countervailing governmental interests at stake.”
Graham v. Connor, 490 U.S. 386, 396 (1989). The
proper application of the Fourth Amendment’s
reasonableness test requires careful attention to the
facts and circumstances of each particular case,
including (1) the severity of the crime at issue, (2)
whether the suspect posed an immediate threat to the
Plaintiff asserts that Girdner and Vick fired six shots, striking
Rollice four times. (#56 at 2).
5

6 It is impossible to ascertain from the video who fired at Rollice
while he was in the kneeling position, but it appears to be
undisputed that it was Girdner. (See #47-3 at ¶16). Vick refers to
“another gunshot” (#47-6 at ¶16), while Reed says he “heard
several more gunshots.” (#47-5 at ¶22). To the court’s ear, it
sounds like a single gunshot.

App-41
safety of officers or others, and (3) whether he is
actively resisting arrest or attempting to evade arrest
by flight. Id.
The first and third factors are somewhat difficult
to apply, because it is undisputed that the officers
approached without the intent to arrest Rollice. (#475 at ¶9). In Drummond ex rel. Drummond v. City of
Anaheim, 343 F.3d 1052, 1057-1058 (9th Cir.2003),
the court said there was a “less-than-overwhelming”
government interest where there was no underlying
crime at issue—a neighbor called police because the
plaintiff was acting in an emotionally disturbed
manner. In the case at bar, the situation evolved from
a non-arrest to a use of deadly force. “[W]ithout a
seizure, there can be no claim for excessive use of
force.” Jones v. Norton, 809 F.3d 564, 575 (10th
Cir.2015). Here, the “seizure” required for Fourth
Amendment applicability may have taken place when
Girdner asked to pat down Rollice for weapons, or it
may not have taken place until the actual shooting.
See Pauly v. White, 874 F.3d 1197, 1215 (10th
Cir.2017)(“Officer White . . . is the one who actually
‘seized’ Samuel Pauly by shooting him”). As to the first
factor, Rollice may have committed a crime under
Oklahoma law when he threatened law enforcement
officers with the hammer, but that intertwines with
the issue of officer conduct (to be discussed). Viewing
the record in the light most favorable to the nonmovant, the court finds the first and third factors favor
plaintiff.
The second Graham factor, however, is
“undoubtedly the ‘most important’ and fact-intensive
factor in determining the objective reasonableness of

App-42
an officer’s use of force.” Pauly, 874 F.3d at 1215-1216.
The use of deadly force is only justified if the officer
had probable cause to believe that there was a threat
of serious physical harm to himself or others. Id. at
1216. This factor itself is analyzed by means of a fourcomponent test: (1) whether the officers ordered the
suspect to drop his weapon, and the suspect’s
compliance with police commands; (2) whether any
hostile motions were made with the weapon towards
the officers; (3) the distance separating the officers
and the suspect; and (4) the manifest intentions of the
suspect. Id. Even viewing the record in the light most
favorable to plaintiff, the court finds all four
components (and therefore the second Graham factor)
strongly favor defendants. 7
The court must also address additional theories
raised by plaintiff. The Tenth Circuit holds that the
reasonableness of the use of force depends not only on
whether the officers were in danger at the precise
moment that they used force, but also on whether the
officers’ own reckless or deliberate conduct during the
seizure unreasonably created the need to use such
force. Pauly, 874 F.3d at 1219. 8 Plaintiff argues that
the officers’ conduct toward Rollice “inflamed the
tensions” and created the need to use such force. The

“Ultimately, however, the totality-of-the-circumstances test is
holistic and open-ended.” Crittenden, 2019 WL 4238106, *4 (10th
Cir.2019).
7

8 Defendants appear to argue that this principle no longer
applies in light of County of Los Angeles v. Mendez, 137 S.Ct. 1539
(2017). The Tenth Circuit disagrees. See Estate of Ceballos v.
Husk, 919 F.3d 1204 n.2 (10th Cir.2019).

App-43
court’s review of the record finds no issue for a
reasonable jury in this regard.
Plaintiff also points to the fact that Reed holstered
his firearm and was prepared to use a Taser, while the
two defendants did not. A similar argument was
rejected in Rucinski v. County of Oakland, 2015 WL
3874482, *7 (E.D.Mich.2015), aff’d, 655 Fed.Appx. 338
(6th Cir.2016). See Wilcoxson v. Painter, 2016 WL
866327, *8 (E.D.N.C.2016)(“Under the correct
standard, defendant Painter’s decision to use her gun
instead of her Taser was well within the realm of an
objectively reasonable response to a perceived threat
of immediate harm”). See also Plakas v. Drinski, 19
F.3d 1143, 1148 (7th Cir.1994)(where an officer’s use of
deadly force is justified under the Constitution, there
is no constitutional duty to use non-deadly force). 9
The court addresses another aspect. The Tenth
Circuit does not appear to disapprove of taking a
“segmented” view of such incidents (i.e., analyzing
multiple shots separately if the circumstances so
warrant.) See Fancher v. Barrientos, 723 F.3d 1191,
1199-1200 (10th Cir.2013). At the time of Girdner’s
final shot, Rollice was already wounded and in a
kneeling position. While Rollice still held the hammer,
his ability to inflict damage with it may (or may not)
The Tenth Circuit has held that an officer who tases an
arrestee uses excessive force when “a lesser degree of force would
have exacted compliance and . . . this use of force was
disproportionate to the need.” Booker, 745 F.3d at 424. This was
referring to a suspect already restrained, which was not the
situation in the case at bar. The use of deadly force when the
suspect poses an immediate threat is distinct. See Jiron v. City of
Lakewood, 392 F.3d 410,414 (10th Cir.2004).
9

App-44
have been negligible. Still, this court must allow for
the fact that “police officers are often forced to make
split-second judgments—in circumstances that are
tense, uncertain, and rapidly evolving—about the
amount of force that is necessary in a particular
situation.” Plumhoff v. Rickard, 572 U.S. 765, 775
(2014). 10 “What may later appear to be unnecessary
when reviewed from the comfort of a judge’s chambers
may nonetheless be reasonable under the
circumstances presented to the officer at the time.”
Phillips v. James, 422 F.3d 1075, 1080 (10th
Cir.2005). In the end, “the inquiry is always whether,
from the perspective of a reasonable officer on the
scene, the totality of the circumstances justified the
use of force.” Estate of Larsen v. Murr, 511 F.3d 1255,
1260 (10th Cir.2008). For the reasons stated, while
this shooting was undeniably tragic, the court
concludes plaintiff’s burden of demonstrating that a
reasonable jury could find facts supporting a violation
of a constitutional right has not been met.
In the interest of thoroughness, the court will
proceed to address the second prong of the test.
“Because the focus is on whether the officer had fair
notice that her conduct was unlawful, reasonableness
is judged against the backdrop of the law at the time
of the conduct.” Kisela v. Hughes, 138 S.Ct. 1148, 1152
(2018). As stated, the incident under review took place
in August, 2016. Ordinarily, in order for the law to be
clearly established, there must be a Supreme Court or
Tenth Circuit decision on point, or the clearly
10 Fourth Amendment excessive force claims are judged from
the perspective of a reasonable officer on the scene, rather than
with 20/20 vision of hindsight. Pauly, 874 F.3d at 1215.

App-45
established weight of authority from other courts must
have found the law to be as the plaintiff maintains.
Grissom v. Roberts, 902 F.3d 1162, 1168 (10th
Cir.2018). Clearly established law should not be
defined at a high level of generality. See Milner v.
Mares, 754 Fed.Appx. 777, 779 (10th Cir.2019).
Instead, the clearly established law must be
“particularized” to the facts of the case. Id. Although
there need not be a case directly on point for a right to
be clearly established, existing precedent must have
placed the statutory or constitutional question beyond
debate. Id. 11
Plaintiff cites as “strikingly similar to the case at
bar” (#56 at 14) the Tenth Circuit decision in Estate of
Ceballos v. Husk, 919 F.3d 1204 (10th Cir.2019).
There, the deceased was in his driveway with a
baseball bat, acting erratically. An officer shot
Ceballos within one minute of arrival “after
approaching Ceballos quickly and screaming at him to
drop the bat, and refusing to give ground as Ceballos
approached the officers. The officer was between 12
and 20 feet from Ceballos when he shot the batwielding man.” Gonzales v. Adson, 2019 WL 1795937
n.7 (N.D.Okla.2019).
The Tenth Circuit, in denying qualified immunity,
held that the clearly established right is that “an
officer violates the Fourth Amendment when his or
her reckless or deliberate conduct results in the need
for lethal force or when the officers rely on lethal force
11 There can be the “rare obvious case,” where the unlawfulness
of the officer’s conduct is sufficiently clear even though existing
precedent does not address similar circumstances. Doe v.
Woodard, 912 F.3d 1278, 1289 (10th Cir.2019).

App-46
unreasonably as a first resort in confronting an
irrational suspect who is armed only with a weapon of
short-range lethality and who has been confined on his
own property.” Ceballos, 919 F.3d at 1219.
This court has already rejected the argument that
the officers’ conduct in the case at bar created the need
for lethal force. So far as the record reflects, the
officers only began yelling at Rollice after Rollice
picked up the hammer. To be sure, there is a rough
equivalence between a hammer and a baseball bat, in
that both are weapons of “short-range lethality.”
Nevertheless, the court does not find the plaintiff’s
“danger creation” theory (#56 at 12) applicable here.
The second portion of the statement in Ceballos
(an officer using deadly force as a first resort when
confronted with a baseball bat, or as here a hammer)
might present a closer question but also implicates
another fundamental issue. The Ceballos decision was
issued on March 26, 2019, while the litigated events
herein took place in August, 2016. The Ceballos
decision itself notes that “our focus in deciding
whether a constitutional right was clearly established
is . . . at the time the challenged conduct occurred.” Id.
Therefore, Ceballos will not serve as “clearly
established law” in the case at bar, unless the right
existed in Tenth Circuit precedent preceding this
incident.
The court in Ceballos found that there was a
Tenth Circuit decision “closely analogous” for
purposes of its analysis—Allen v. Muskogee, 119 F.3d
837 (10th Cir.1997). In Allen, the suspect sat in a car
with a gun in his hand. The officers ran to the car
yelling and tried to take the gun away from the

App-47
suspect. In the struggle, the suspect pointed the gun
at the officers, and the officers shot him. The Tenth
Circuit held that a reasonable jury could have found a
Fourth Amendment violation.
The argument (from plaintiff’s perspective) would
be that Allen was “existing precedent” in 2016 and the
Tenth Circuit’s interpretation of Allen rendered by the
Ceballos court in 2019 makes manifest that this
interpretation of Allen was “clearly established law” in
August, 2016. In other words, this court could find the
right recognized in Ceballos was present in embryo in
Allen. The court is not persuaded this is correct. The
right was not “clearly established” until the Ceballos
decision. Moreover, this interpretation was not
unanimous, even within Ceballos. Judge Bacharach
dissented, and concluded: “Nor did Allen clearly
establish a constitutional violation from Officer
Husk’s conduct.” Id. at 1227. Judicial disagreement
indicates the “clearly established law” hurdle has not
been cleared. See Van De Weghe v. Chambers, 569
Fed.Appx. 617, 620 (10th Cir.2014). This court finds
plaintiff has not met the second prong of the qualified
immunity analysis either. Accordingly, summary
judgment is appropriate. 12
Plaintiff also seeks to rely on an expert report (#56-8) of
Dennis Waller, who opines that the officers ignored nationally
accepted procedures of police training and practice, engaged in
“reckless” conduct, and used excessive force. Expert witnesses
may testify about ultimate issues of fact, but an expert may not
state legal conclusions drawn by applying the law to the facts.
United States v. Richter, 796 F.3d 1173, 1195 (10th Cir.2015).
The line between a permissible opinion on an ultimate issue and
an impermissible legal conclusion is not always easy to discern.
Id. “[B]y permitting opinion testimony as to an ultimate issue,
12

App-48
Engaging in a dispassionate discussion of a tragic
death (particularly after viewing it on video) is an
unavoidable task for a court. This court must follow
the law as best it can, and the present regime of
qualified immunity does not permit the case to proceed
further. It is the order of the court that the motion for
summary judgment of defendants Vick and Girdner
(#47) is hereby granted.
IT IS SO ORDERED
SEPTEMBER, 2019.

this 25th day

of

[handwritten: signature]
Ronald A. White
United States District Judge
Eastern District of Oklahoma

Rule 704(a) does not authorize opinions that merely tell the trier
of fact what result to reach in the case.” 29 Wright & Gold,
Federal Practice and Procedure, §6284 at 468-69 (2016 ed.). This
court concludes the expert report will not be considered. See
Lippe v. Howard, 287 F.Supp.3d 1271, 1285 (W.D.Okla.2018); “It
is well established that ‘so long as a reasonable officer could have
believed his conduct was justified, a plaintiff cannot avoid
summary judgment by simply producing an expert’s report that
an officer’s behavior leading up to the deadly confrontation was
imprudent, inappropriate or even reckless.’” Clark v. Colbert,
2017 WL 3049523, *6 (E.D.Okla.2017), aff’d, 895 F.3d 1258 (10th
Cir.2018)(quoting City and County of San Francisco v. Sheehan,
135 S.Ct. 1765, 1777 (2015)). Even if the report were to be
considered, it is only pertinent to the first prong of the qualified
immunity test, not the “clearly established” prong.

App-49
Appendix D
RELEVANT CONSTITUTIONAL AND
STATUTORY PROVISIONS
U.S. Const. amend. IV
The right of the people to be secure in their persons,
houses, papers, and effects, against unreasonable
searches and seizures, shall not be violated, and no
Warrants shall issue, but upon probable cause,
supported by Oath or affirmation, and particularly
describing the place to be searched, and the persons or
things to be seized.
42 U.S.C. § 1983
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any State
or Territory or the District of Columbia, subjects, or
causes to be subjected, any citizen of the United States
or other person within the jurisdiction thereof to the
deprivation of any rights, privileges, or immunities
secured by the Constitution and laws, shall be liable
to the party injured in an action at law, suit in equity,
or other proper proceeding for redress, except that in
any action brought against a judicial officer for an act
or omission taken in such officer’s judicial capacity,
injunctive relief shall not be granted unless a
declaratory decree was violated or declaratory relief
was unavailable. For the purposes of this section, any
Act of Congress applicable exclusively to the District
of Columbia shall be considered to be a statute of the
District of Columbia.

